FILED
DEC - 8 2020

WAIVER

OFFICE OF THE CLERK
SUPREME COURT! iH:

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-680

Lee Wendell Loder

V.

Icemakers, Inc.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

□ I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this CotfrtX Should a response be requested, the response
will be filed by a Baj temper.
Signature_____k_

n-g.2-c

Date:
(Type or print) Name

Walter F. McArdle
0 Mr.

□ Ms.

□ Mrs.

□ Miss

Firm

Spain & Gillon, LLC

Address

505 20th Street North, Suite 1200

City & State

Birmingham, Alabama

Phone

205-581-6295

Zip
Email

35203

wmcardle@spain-gillon.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Lee Wendell Loder, Post Office Box 13545, Birmingham, Alabama 35202

RECEIVED
DEC 1 1 2020
supreme"

SPAIN & GILLON, LLC
505 20th Street North
1200 Financial Center
Birmingham, Alabama 35203
Telephone: 205.328.4100
Writer's Direct Dial: 205.581.6295
Writer's Direct Email: wmcardle@spai.n-gi.llon.com

Walter F. McArdle
Attorney at Law

Board Certified in Business Bankruptcy Law
By the American Board of Certification

December 8,2020
VIA FEDERAL EXPRESS
Mr. Scott S. Harris, Clerk of Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

In re: Lee Wendell Loder v. Icemakers, Inc.
Supreme Court Case No. 20-680

Dear Mr. Harris:
Enclosed please find the original and one copy of a Waiver of Response for filing in the
above referenced matter on behalf of Respondent Icemakers, Inc. Please file the original, and
return a stamped, filed copy in the pre-stamped envelope provided.
By copy of this letter, I certify that I have served the Petitioner, Lee Wendell Loder, with
a copy of the enclosed Waiver of Response. Should the court require additional information,
please feel free to contact me.
Thank you for your assistance in this matter.
Sincerely,
SPAIN & GILLON, L.L.C.

Walter F. McArdle
WFM/mjm
enclosure
cc: Lee Loder, Petitioner

RECEIVED
DEC 1 1 2020
supremeFcourtuIsK

